OFFICE OF INSPECTOR GENERAL

AUDIT OF
USAID/AFGHANISTAN’S
SUPPORT TO THE ELECTORAL
PROCESS AND SUPPORT FOR
INCREASED ELECTORAL
PARTICIPATION IN
AFGHANISTAN PROGRAMS
AUDIT REPORT NO. F-306-11-003-P
JUNE 19, 2011



KABUL, AFGHANISTAN
Office of Inspector General



June 19, 2011

MEMORANDUM

TO:                  USAID/Afghanistan Mission Director, Earl W. Gast

FROM:                OIG/Afghanistan Director, Tim Cox /S/

SUBJECT:             Audit of USAID/Afghanistan’s Support to The Electoral Process (STEP) and
                     Support for Increased Electoral Participation in Afghanistan (IEP) Programs
                     (Report Number F-306-11-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft report and have included the comments
(without attachments) in Appendix II.

This report contains nine recommendations to assist USAID/Afghanistan in improving its
oversight of the subject programs.       Management decisions have been reached on
Recommendations 1, 2, 4, 5, and 9.           Management decisions may be reached on
Recommendations 3, 7, and 8 when we agree with USAID/Afghanistan on a firm plan of action,
with timeframes, for implementing the recommendations.         A management decision for
Recommendation 6 can be recorded when USAID/Afghanistan determines the allowability of
questioned costs totaling $6 million. Please advise our office within 30 days of the actions
planned or taken to implement Recommendation 6.

A determination of final action for Recommendations 1, 2, 4, 5, and 9 will be made by the Audit
Performance and Compliance Division on completion of the proposed corrective actions.

Thank you and your staff for the cooperation and courtesy extended to us during the audit.




U.S. Agency for International Development
Office of Inspector General
Country Office Afghanistan
U.S. Embassy
Kabul, Afghanistan
www.usaid.gov/oig
CONTENTS
Summary of Results ..................................................................................................... 1

Audit Findings ............................................................................................................... 3

     STEP Program Achieved Outputs, but Evidence on Outcomes Was Mixed .............. 3

     Longer-Term Issues Need to Be Addressed .............................................................. 7

     Mission Did Not Complete Contractor Performance Review .................................... 11

     Implementing Partner Did Not Implement Rural Radio Program .............................. 12

     Implementing Partner Charged Unreasonable Security Costs to USAID ................. 13

     Consortium Did Not Consolidate Support Functions to Reduce Expenses .............. 14

     Consortium Did Not Properly Mark USAID-Funded Publications ............................. 15

Evaluation of Management Comments...................................................................... 16

Appendix I – Scope and Methodology ....................................................................... 19

Appendix II – Management Comments ...................................................................... 20

Appendix III – Planned and Actual Outputs for STEP .............................................. 27

Appendix IV – Planned and Actual Outputs for IEP.................................................. 30

Abbreviations
The following abbreviations appear in this report:
ADS            Automated Directives System
AOTR           Agreement officer’s technical representative
CEPPS          Consortium for Elections and Political Process Strengthening
CFR            Code of Federal Regulations
COTR           Contracting officer’s technical representative
ECC            Electoral Complaints Commission
FAR            Federal Acquisitions Regulation
FY             Fiscal year
IEC            Independent Electoral Commission
IEP            Increased Electoral Participation in Afghanistan
IFES           International Foundation for Electoral Systems
IRI            International Republican Institute
LGCD           Local Government and Community Development
NDI            National Democratic Institute
PECC           Provincial Electoral Complaints Commission
SNTV           Single non-transferable vote
STEP           Support to the Electoral Process
SUMMARY OF RESULTS
After the fall of the Taliban government in Afghanistan in 2001, the first two elections—a
presidential election in 2004 and parliamentary elections in 2005—were internationally
administered by the United Nations Assistance Mission in Afghanistan and an interim Joint
Electoral Management Body. The first Afghan-led elections were the presidential and provincial
council elections held in 2009, followed by parliamentary elections in 2010.

To help strengthen Afghanistan’s electoral system, USAID/Afghanistan has provided assistance
mainly through the Support to the Electoral Process (STEP) Program implemented under a
contract with the International Foundation for Electoral Systems (IFES), the Increased Electoral
Participation in Afghanistan (IEP) Program implemented through a cooperative agreement with
the Consortium for Election and Political Process Strengthening (CEPPS), and two programs
implemented by the United Nations Development Program (UNDP) that were not covered by
this audit. Financial information for the programs covered by this audit is provided in Table 1.

        Table 1. Program Financial Information as of December 31, 2010 (Unaudited)

                                                                  Obligations     Expenditures
Program          Type of Award          Start Date    End Date
                                                                   ($ million)     ($ million)
STEP        Contract                     6/15/2008    6/14/2011        61.1            48.7
IEP         Cooperative Agreement        9/29/2008    9/28/2011        63.4            50.2
Total                                                                 124.5            98.9
Source: USAID/Afghanistan Office of Financial Management, ―Status of Major Contracts and Grants,‖
December 31, 2010.

The Office of Inspector General’s Country Office in Afghanistan conducted this audit to
determine whether the IEP and STEP programs were achieving their main goal of strengthened
competitive, inclusive, and credible elections and political processes.

The STEP program has performed well in achieving outputs—in particular, those dealing with
civic education and outreach, training, and staffing of the Independent Election Commission
(IEC) and the Electoral Complaints Commission (ECC). The program has helped increase the
capacity of both commissions to administer elections and has contributed to the credibility of
elections themselves, although evidence of progress toward achievement of higher-level results
is mixed (page 3).

The IEP program has also performed well in achieving outputs, including training tens of
thousands of Afghans who participated in elections as political party or coalition members and
election observers. Furthermore, IEP implemented civil and voter education programs that
reached hundreds of thousands of people. However, there is no persuasive evidence that these
outputs have influenced the achievement of higher-level results such as increased citizen
awareness of the electoral process or a stronger democratic political party system. A
comparison of planned and actual IEP program outputs for fiscal years (FYs) 2009 and 2010 is
included in Appendix IV.

The ―Audit Findings‖ section of this report includes detailed audit findings on the results of the
STEP program, as summarized above. It also discusses some longer-term issues that need to


                                                                                                1
be addressed to better ensure credible elections, including legal reforms to protect the
independence of the IEC and ECC, reform of the ―single non-transferable vote‖ system of
representation, actions to make Afghanistan’s electoral system more sustainable, and a more
reliable voter registry (page 7). In addition, contractor performance reviews for the STEP
program were not prepared (page 11), a rural radio program was not implemented (page 12),
unreasonable security costs were charged to USAID (page 13), the CEPPS consortium missed
opportunities to consolidate support functions to reduce expenses (page 14), and the CEPPS
consortium did not properly mark USAID-funded publications (page 15).

The report recommends that USAID/Afghanistan:

1. Undertake a technical evaluation of the effectiveness of voter education and civic education
   efforts it has supported (page 7).

2. Prepare a more formal project design document for the follow-on program after the STEP
   program ends in June 2011 that explicitly identifies the critical assumptions underlying the
   program design (page 7).

3. Develop detailed plans for addressing long-term legal reform, financial and constitutional
   arrangements for elections, and voter registration issues in conjunction with the Government
   of Afghanistan, other local stakeholders, and international donors (page 11).

4. Complete all required contractor performance reviews of IFES under the STEP contract
   (page 12).

5. Prepare an implementation plan for use of the $1.4 million rural radio supplemental funding
   consistent with the goals of the program, or reprogram these funds for other mission
   programs (page 12).

6. Determine the allowability of the $6,350,319 incurred by the International Republican
   Institute (IRI) for security expenses, and recover any costs determined to be unreasonable
   (page 14).

7. Establish procedures and criteria for determining the reasonableness of security costs
   charged by implementing partners (page 14).

8. For the follow-on program, require consortium members to consolidate functions and
   facilities to the extent possible to reduce expenses (page 14).

9. Require IRI, as the lead partner in the Consortium, to submit a Consortium marking and
   branding plan, and verify that the plan has been implemented (page 15).

USAID/Afghanistan was in general agreement with the report recommendations.         Our
evaluation of management comments begins on page 16, and the mission’s comments
themselves are in Appendix II. Appendix I presents the audit scope and methodology.




                                                                                             2
AUDIT FINDINGS
STEP Program Achieved Outputs, but
Evidence on Outcomes Was Mixed
The effectiveness of the STEP program can be assessed in terms of outputs and outcomes
(short- and long-term results). Working with USAID/Afghanistan’s Democracy and Governance
Office and drawing from the FY 2010 operating plan and the mission’s performance
management plan for FYs 2011–15, we identified the key outputs and results that the STEP
program was expected to achieve.

Outputs. USAID support to STEP strengthened the IEC’s outreach and publicity efforts and
allowed it to establish a gender department, buy equipment, renovate facilities, and conduct
other activities. Although the focus of the STEP program was on the IEC, the program also
provided limited assistance to the ECC, as the following examples illustrate.

   Civic education programs implemented through an IFES subcontractor reached more than 1
   million people prior to both the 2009 and 2010 elections, and mobile theater presentations
   by a second subcontractor reached more than 40,000 people prior to the 2009 election.
   IFES also paid for printing hundreds of thousands of copies of educational and promotional
   materials that were turned over to IEC for distribution.

   In addition to supporting the establishment of a gender department in the IEC, IFES
   reportedly worked with the IEC, the Ministry of Women’s Affairs, and the Ministry of Interior
   to increase the number of female searchers and other female election workers so that
   female voters would feel comfortable voting.

   IFES helped IEC establish a data center and provided IEC information technology
   equipment and software valued at $1.1 million.

   IFES supported establishment of a media-monitoring unit for IEC, call centers for the 2009
   and 2010 elections, renovation and security improvements for other IEC space, and
   maintenance of electrical generators for regional offices.

   IFES paid the salaries of one ECC international commissioner in 2009, two commissioners
   in 2010, and paid the salaries of 94 staff that were seconded by IFES to the IEC.

   IFES provided technical and financial support for training that reportedly reached more than
   7,000 IEC staff and almost 600 ECC staff.

A detailed comparison of planned and actual outputs under the STEP program is in Appendix III.

Expected Results: Strengthen Administration of Elections by the Afghan Government
and Raise Citizen Awareness of the Electoral Process. The STEP program was expected to
strengthen the ―ability of [the Government of the Afghanistan] to effectively administer elections‖
and ―citizen awareness of electoral process.‖




                                                                                                 3
The assistance provided through the STEP program helped strengthen the ability of
Afghanistan’s major electoral institutions to administer elections effectively, at least in terms of
their technical operations as outlined above. Still, the independence of the IEC and ECC
strongly influence their ability to administer elections fairly and effectively, and in some cases
the commissions have not acted independently. Moreover, the combined efforts of international
donors (including USAID and IFES under the STEP program), the IEC, and the ECC were not
sufficient to prevent massive fraud in both the 2009 and 2010 elections.1

According to international observers, the IEC behaved more independently in the 2010 elections
than in the 2009 elections. The greater independence exhibited by the IEC in 2010 resulted
from key leadership changes at the IEC, which were negotiated between the Government of
Afghanistan and international donors after the IEC’s weak performance in the 2009 elections, as
well as from the exceptional efforts of individual IEC employees and IFES/STEP advisers and
close monitoring and engagement by international stakeholders.             The IEC’s greater
independence was not due to any kind of strengthening of the legal framework governing the
appointment of IEC commissioners; IEC commissioners are simply appointed by the executive
with no formal participation by other stakeholders.

From 2009 to 2010, the ECC became less independent of the executive because of an
unfavorable change in the electoral law, but informal agreements helped maintain the ECC’s
independence in practice. Under Afghanistan’s 2005 Electoral Law, which was in effect for the
2009 elections, one member of the five-member commission was appointed by the Supreme
Court, one was appointed by the Afghan Independent Human Rights Commission, and three
international members were appointed by the Special Representative of the Secretary General
of the United Nations in Afghanistan. Under a 2010 electoral decree, which has the force of
law,2 the executive, in consultation with the speakers of the two houses of the National
Assembly and the Chief Justice of the Supreme Court, has the authority to establish central and
provincial electoral complaints commissions. The decree does not specify the number of
commissioners or how they should be appointed by the executive. This change made the ECC
commissioners more dependent on the executive.            However, the international donors
subsequently reached an agreement with the Government of Afghanistan that at least two of the
commissioners would be international commissioners, thus maintaining a degree of
independence from the executive. In addition, the commissioners agreed among themselves
that all decisions would be made by consensus, and this informal agreement reportedly had the
effect of enhancing the ECC’s independence.

With respect to citizen awareness of electoral processes, the evidence concerning the STEP
program’s effectiveness is also mixed. On one hand, according to a STEP-financed survey of
1,620 Afghans conducted immediately before the September 2010 parliamentary elections, 76
percent of the people in communities with STEP-financed civic education and media outreach
were aware of the upcoming elections, versus 68 percent of the people in communities that
were not served by STEP. These relative magnitudes were approximately preserved when the
respondents were restricted to women or to people with no formal education. On the other

1
  A discussion of electoral fraud issues begins on page 6.
2
  On February 17, 2010, with the National Assembly in recess, President Karzai issued a presidential
decree amending the Electoral Law of Afghanistan. According to Article 79 of the constitution, in the case
of immediate need, the President of Afghanistan is permitted to issue decrees that acquire the force of
law unless they are specifically rejected by the National Assembly. The lower house of the National
Assembly, the Wolesi Jirga, did in fact reject the decree, but the upper house, the Meshrano Jirga, chose
not to include the decree in its agenda, so the decree now has the force of law.

                                                                                                        4
hand, surveys by the Asia Foundation at the national level show consistent declines in citizen
awareness of elections since the first election in Afghanistan was held in 2004. Results of
surveys from the two sources follow:

               Table 2. Citizen Awareness of Upcoming Elections, 2004–2010

                           Asia Foundation Survey               STEP/Counterpart International Survey
                                                                      2010                 2010
                                                                 Parliamentary       Parliamentary
                                                   2010
  Measure          2004            2009                             Election            Election
                                              Parliamentary
               Presidential    Presidential                       (Aug./Sept.):       (Aug./Sept.):
                                                 Election
                 Election        Election                        Communities          Communities
                                               (June/July)
                                                                   With STEP         Without STEP
                                                                    Activities          Activities
 Percent of
 population
                    91             85               78                 76                  68
 aware of
 elections
Source: The Asia Foundation, Afghanistan in 2010: A Survey of the Afghan People, 2010, and
Counterpart International, Nationwide Assessment of Citizen Perceptions and Knowledge of Electoral
Process in Afghanistan, 2011.

These survey results indicate that STEP—and other programs financed by USAID and other
international donors—may not be having an impact on citizen awareness of elections at the
national level. In response to this surprising result, an IEC official suggested that the
percentage of spoiled ballots might be a better measure of the degree to which the Afghan
electorate is becoming familiar with electoral processes. However, this measure also indicates
mostly negative trends since 2004 (Table 3).

                      Table 3. Percentage of Spoiled Ballots, 2004–2010


                    2004               2005              2009                2010
                Presidential      Parliamentary      Presidential       Parliamentary
                  Election          Election           Election           Election

                     1.3                2.7               3.2                 3.2
              Source: IEC.

A senior IFES official suggested that these trends indicate a need for careful analysis of the
voter education and civic education efforts supported by IFES (and presumably other programs
as well). She suggested that outreach efforts might need to be more carefully targeted to
specific groups, noting that there might be an overreliance on TV and radio advertising to reach
populations that still prefer face-to-face communication.

Expected Result: Competitive and Credible Election and Political Processes. The
assistance provided by IFES under the STEP program was expected to contribute to
competitive and credible election and political processes.

The elections that took place during the period of the STEP program were competitive in that
they were vigorously contested. There were 3,196 candidates for the 170 seats available in

                                                                                                        5
2009 provincial council elections, 41 candidates in the 2009 presidential elections, and
approximately 2,500 candidates for the 249 seats available in the 2010 parliamentary elections.
While there was widespread fraud in all of these elections, it was not so widespread as to
render the results a foregone conclusion.3

In the 2009 presidential contest, IFES/STEP helped devise a sampling and recount procedure
to counter fraud.4 This procedure led to annulment of about 1.1 million ballots, representing 19
percent of the total votes cast.5 Public opinion polls indicate that Afghans accept President
Karzai as the legitimate victor despite their awareness of widespread fraud in the election.
Contributing to a credible result in the 2009 presidential election was a major accomplishment
given the high international visibility of the election, the widespread fraud that occurred, and the
potential for conflict outside the electoral arena if the result had not been accepted by a majority
of the Afghan people.

Given the scale of fraud in the presidential contest, and the importance of delivering a credible
result in that contest, the ECC had less time to devote to the provincial council elections that
were also held in 2009.6 Still, the ECC excluded about 300,000 ballots. Since relatively few
votes were required to win a provincial council election (as few as 1,223, with margins of as few
as 7 votes),7 the provincial election results were much more sensitive to fraud than the
presidential results, and since the ECC spent less time on the provincial election results, it is fair
to conclude that these elections did not have the same degree of credibility that the presidential
election results did.

In the 2010 parliamentary elections, the ECC and IEC reportedly annulled 1.3 million votes,
representing 24 percent of the total votes cast.8 Because of the small number of votes required
to win election to the National Assembly (as few as 251, with margins of victory of as little as 1

3
  As indicated in the following paragraphs, 19 percent of the ballots in the 2009 presidential election and,
reportedly, 24 percent of the ballots in the 2010 parliamentary election were annulled. We conclude that
the result of the presidential contest was not a foregone conclusion because, according to the final results
certified by the IEC, the winner, President Karzai, won 49.67 percent of the vote and the closest runner
up, Abdullah Abdullah, won 30.59 percent of the vote in the first round. President Karzai’s vote total fell
short of the majority vote that would have been required to avoid a second round of voting, and President
Karzai announced on October 20, 2009 that a second round would be held within 2 weeks. However, the
second round was canceled when Dr. Abdullah withdrew from the contest. We conclude that the
outcomes of the 2009 provincial council elections and the 2010 parliamentary elections were not a
foregone conclusion because of the large number of candidates, the small number of votes needed to win
a seat, and the small margins of victory in these elections.
4
  The procedure has been criticized on the basis that votes for all candidates at polling stations where
fraud was identified were reduced by the same percentages, unfairly penalizing candidates that received
small numbers of fraudulent votes or no fraudulent votes at these stations.
5
  Electoral Complaint Commission, Final Report: 2009 Presidential and Provincial Council Elections, April
2010. The ECC directed the IEC to annul 1.3 million ballots, but the final election results announced by
the IEC reflected annulment of only 1.1 million ballots.
6
  In its final report on the 2009 elections, the ECC explains: ―The ECC did not have the same amount of
time or resources to conduct [investigations of the provincial council election results], and the results
varied by province depending on the level of access the ECC had to ballot boxes.‖
7
  The small vote totals required to win provincial council elections in 2009 (and parliamentary elections in
2010) are an undesirable consequence of the ―single non-transferable vote‖ system of representation,
which is discussed in more detail on page 9.
8
   Organization for Security and Cooperation in Europe (Office for Democratic Institutions and Human
Rights), OSCE/ODIHR Election Support Team Report: Islamic Republic of Afghanistan Parliamentary
Elections, September 18, 2010.

                                                                                                          6
vote), and because few details are yet available to show the number of annulled votes and the
reasons for the annulments, there is insufficient evidence available to characterize the provincial
elections as credible. After the 2010 elections, the Government of Afghanistan created a
special tribunal to hear complaints of electoral fraud and conduct recounts of some
parliamentary contests. The legal mandate for the special tribunal is unclear and appears to
overlap the mandates of the IEC and the ECC.

In sum, the STEP program has performed well with respect to achieving outputs, and the
program has influenced progress toward increased local capacity to administer elections as well
as the credibility of elections themselves, although evidence of progress toward these higher-
level results is mixed. This is what would be expected, given the environment in which the
elections were held and that the Government of Afghanistan has managed only two elections to
date. In addition, during 2009 and 2010, attention focused on the immediate needs associated
with conducting the 2009 and 2010 elections; in these circumstances, it was hard to address
longer-term issues affecting the capacity of Afghanistan’s electoral institutions and the credibility
of its elections. These factors limited the effectiveness of the program in contributing to higher-
level results.

In retrospect, it might have been worthwhile to prepare a more formal program design document
that spelled out critical assumptions; this might have made it easier to monitor the degree to
which critical assumptions (such as host-government commitment to political reform) were valid
and to take corrective action as needed. In our opinion, any follow-on program should follow a
disciplined design process as outlined in Chapter 201 of USAID’s Automated Directives System.

   Recommendation 1. We recommend that USAID/Afghanistan undertake a technical
   evaluation of the effectiveness of voter education and civic education efforts it has
   supported.

   Recommendation 2. We recommend that USAID/Afghanistan prepare a more formal
   project design document for the follow-on program after the Support to the Electoral
   Process Program ends in June 2011 that explicitly identifies the critical assumptions
   underlying the program design.

Longer-Term Issues
Need to Be Addressed
There are some longer-term issues impeding accomplishment of the higher-level results
included in the FY 2010 operating plan and the mission Performance Management Plan for
FYs 2011–15. While attention during 2009 and 2010 focused on short-term needs and electoral
administration, the 3-year period until the next election provides donors with an opportunity to
achieve progress on longer-term issues. These are discussed in the following sections.

Legal Framework

A stable legal framework is needed within which the Government of Afghanistan’s electoral
institutions can evolve and within which citizen awareness of electoral processes can develop.
The major issues that need to be addressed are (1) making the electoral law a majoritarian
project of the parliament rather than a presidential decree, (2) establishing the ECC as a
permanent body, (3) establishing an appointment process for ECC commissioners that involves
stakeholders other than the executive, (4) establishing an appointment process for IEC

                                                                                                   7
commissioners that involves stakeholders other than the executive, (5) reforming the ―single
non-transferable vote‖ (SNTV) system of representation to a system in which votes and
electoral results have a more predictable and proportional relationship.

Electoral Law. According to a senior IFES official, electoral laws are agreements for sharing
power and so can be viewed as ―mini-constitutions.‖ Given their fundamental importance, it is
desirable that electoral laws enjoy wide support. The use of an executive decree in 2010 to
promulgate electoral law was not an effective tool for securing wide support: in fact, the decree
was rejected by the Wolesi Jirga, the lower house of parliament.9 The decree also created
uncertainty since the Government of Afghanistan’s electoral institutions and other stakeholders
were not sure until just before the 2010 election whether the election would be held under
current law (i.e., the 2005 Electoral Law) or a new decree (as turned out to be the case). An
electoral law passed by a majority of both houses of Parliament would demonstrate a wider
base of support for the electoral system and could prove to be more durable and stable.

Permanent ECC. According to international stakeholders, efforts to build capacity within the
ECC have been complicated by its temporary status: the institution comes into existence 120
days before each election and ceases to exist 60 days after each election. While these
arrangements might be suitable for an organization staffed primarily by international experts
(which the ECC originally was), they make it difficult to recruit and train qualified local staff and
build local capacity. Establishing the ECC as a permanent institution with a permanent core
staff (which would be supplemented with temporary staff during election periods) would make it
easier to build capacity within the ECC.

Appointment of ECC Commissioners. It is desirable for electoral institutions to enjoy a
degree of independence from the executive so that election results will be perceived as credible
and relatively free from political influence.    The need for independent review of electoral
processes is recognized in the Office of the United Nations High Commissioner for Human
Rights’ General Comment 25 on the International Covenant on Civil and Political Rights, which
states: ―There should be independent scrutiny of the voting and counting process and access to
judicial review or other equivalent process so that electors have confidence in the security of the
ballot and the counting of the votes.‖

Under Afghanistan’s 2005 Electoral Law, one member of the five-member ECC was appointed
by the Supreme Court, one was appointed by the Afghan Independent Human Rights
Commission, and three international members were appointed by the United Nations Special
Representative in Afghanistan. The 2010 electoral decree does not specify the number of
commissioners or how they should be appointed by the executive. This change made the ECC
commissioners more dependent on the executive. An informal agreement between the
international donors and the Government of Afghanistan helped maintain a degree of
independence by stipulating that at least two of the commissioners would be international
commissioners. However, this arrangement is not durable, and there is a need for permanent
arrangements that provide for a measure of independence from the executive in the
appointment of ECC commissioners.

Appointment of IEC Commissioners. As noted in the previous paragraph, it is desirable for
electoral institutions to enjoy a degree of independence from the executive. This principle is

9
  However, to prevent a decree issued under Article 79 of the Constitution from becoming law, both
houses of parliament must reject the decree. Because the upper house, the Meshrano Jirga, did not
include consideration of the decree in its agenda, the decree acquired the force of law.

                                                                                                   8
recognized in General Comment 25 on the International Covenant on Civil and Political Rights,
which states: ―An independent electoral authority should be established to supervise the
electoral process and to ensure that it is conducted fairly, impartially and in accordance with
established laws which are compatible with the Covenant.‖ However, in Afghanistan, IEC
commissioners are simply appointed by the executive.

SNTV System. The SNTV system of representation for legislative elections, used in only a
handful of countries, has been criticized as inhibiting the development of political parties; failing
to produce predictable, proportional relationships between votes cast and election results; and
making elections more sensitive to fraud because of the small number of votes needed to win
and the small margins of victory.

As far as we can tell, the SNTV system is used only in Afghanistan, Jordan, and Vanuatu. In
the SNTV system, legislative candidates compete in multimember districts where the n seats
available are allocated to the n candidates with the highest vote totals. The system inhibits
political party development because it places impossible coordination requirements on parties
and their supporters: a party with multiple candidates in a district wants each candidate to win
enough votes to be elected, but without taking too many votes away from the party’s other
candidates. According to the Organization for Security and Cooperation in Europe’s Office for
Democratic Institutions and Human Rights:

       The requirement for voters to mark for a single candidate in a multi-member constituency
       makes it extremely difficult for parties to work out how to divide their potential votes to
       prevent one of their candidates being elected with an excessively high number of votes
       and therefore the other candidates of the party not being elected. Conversely, the party’s
       votes may be overly divided between too many candidates resulting in none of their
                                 10
       candidates being elected.

Another disadvantage of the SNTV system is that the last few seats in a district are typically
won with only a small number of votes and even smaller margins of victory. The small margins
of victory make the system sensitive to fraudulent manipulation. They also make the process
like a lottery, in which neither candidates nor voters can judge who is a viable candidate and
who is not, leading to a large number of candidates. This increases the costs of election
administration and makes it harder for voters to cast their votes wisely. For example, in Kabul
Province, there were 520 candidates for the five seats available in the 2009 provincial council
elections. This necessitated the use of a nine-page ballot. Another undesirable feature of the
SNTV system is the large number of ―wasted‖ votes, those cast for losing candidates. In
Afghanistan, well over half of all votes are cast for losing candidates. In these circumstances, it
is hard for voters to see a clear relationship between their votes and the election results.

Many of the criticisms are summed up by the leader of a political party who was quoted by
National Democratic Institute (NDI) as saying:

       The SNTV system is the worst electoral system in the world. In the past parliamentary
       election, I got 53,000 votes, but some other MPs could get a seat in parliament by only
       1,500 votes. This system is clearly hostile to political parties. For this election, our party
       has 40 candidates but all of them have to run independently.


10
  Organization for Security and Cooperation in Europe, Office for Democratic Institutions and Human
Rights, Islamic Republic of Afghanistan Presidential and Provincial Council Elections, August 20, 2009,
OSCE/ODIHR Election Support Team Final Report, December 8, 2009, p. 12.

                                                                                                        9
According to one observer who consulted on constitutional issues in Afghanistan, the SNTV
system was selected ―not as a result of extensive deliberation and careful evaluation of its pros
and cons, but rather by a fairly random process of elimination‖ in which the objective was to find
a system of representation in which voters could vote for individuals rather than parties and in
which provinces would serve as parliamentary districts.11

An alternative system of representation (e.g., some form of proportional representation) might
better permit the development of political parties in Afghanistan while permitting voters to use
their votes more strategically.12

Sustainability

To date, almost all costs associated with Afghanistan’s elections have been paid by
international donors, including USAID. According to the IFES/STEP chief of party, these costs
are on the order of $140 million per election,13 and the ambitious election schedule established
by Afghanistan’s constitution, in which elections are scheduled nearly every year, compounds
the costs that will eventually have to be assumed by the Government of Afghanistan. As
USAID/Afghanistan prepares for the transfer of lead security responsibility from the International
Security Assistance Force to the Government of Afghanistan in 2014, with accompanying
reductions in funding for development and economic assistance programs, it will need to help
the Government transition to a more sustainable elections system.

Voter Registration

Voter registration is a key control to ensure that eligible voters, and only eligible voters, are
permitted to vote. Controls related to voter registration typically include verification of voter
identities and addresses, photos on registration cards (or on other credentials that are accepted
as evidence of voter identities), serial numbers and anti-counterfeiting features incorporated into
voter registration cards, audits or reviews to identify duplicate registrations, and access controls
to prevent unauthorized viewing or modification of the voter registration database.

However, fundamental flaws in Afghanistan’s voter registry have limited its effectiveness in
ensuring that ballots are issued only to eligible voters. Prior to the 2004 presidential election,
between 10 and 11 million voters were registered, but the voter cards were not numbered, did
not include specific address information for voters below the province level, and did not include
photos of female voters who preferred not to have their pictures taken for reasons of modesty.
The lack of specific address information makes it difficult or impossible to hold district elections
as mandated by Afghanistan’s constitution. It also makes it hard for election authorities to tell
how many ballots should be issued in specific geographical areas, polling centers, and stations,
increasing the risk of fraud. The lack of serial numbers and photos for women also increases
the risk of fraud and has led to improbably high numbers of registered women voters:

       While women’s registration [prior to the 2009 elections] was generally low given security

11
   Andrew Reynolds, ―The Curious Case of Afghanistan,‖ p. 213 in Larry Diamond and Marc F. Plattner
(eds.), Electoral Systems and Democracy, 2006.
12
   In proportional representation systems, voters cast votes for parties, not individuals, and seats are
allocated to parties in proportion to the votes each receives. At some point, single-member districts (i.e.,
the system used in the United States) may become feasible as well.
13
   This represents about 10 percent of total budgeted revenues for the Government of Afghanistan’s fiscal
year ending March 20, 2011.

                                                                                                         10
        and cultural considerations, the number of registered women actually exceeded that of
        men in some of the most insecure areas. In Khost, Paktia and Logar provinces, for
        example, over 60 percent of voter registration cards were issued to women. In light of the
        social norms that limit the political participation of women, the high percentage of female
        cards in some areas was an indicator of the scale of identity fraud that plagued the
                              14
        registration process.

Without addressing these fundamental problems, several ―topping up‖ exercises were
subsequently conducted that added 1.7 million registrations in 2004, 4.5 million in 2009, and
400,000 in 2010. The net effect of these efforts was to add millions of duplicate registrations,
but the number is unknown because the registry has not been reviewed or audited to identify
duplicate records, and basic demographic information (e.g., the number of Afghans of voting
age) is not available due to the lack of any census of the population of Afghanistan.

Voter registration efforts to date reflect a series of short-term interventions rather than a longer-
term, systematic approach that would include a census, delimitation of the boundaries of
electoral districts, and civil or voter registries with adequate controls (including address
information, photos, and an audit of the voter registry to eliminate duplicate voter registrations
and counterfeit cards).

Resolving these issues will require an expensive, long-term effort that will not only involve voter
registration, but also require decisions on a civil registry/national identification card system for
Afghanistan, a population census, and demarcation of voting districts.

     Recommendation 3. We recommend that USAID/Afghanistan develop detailed plans
     for addressing the legal reforms, financial and constitutional arrangements for elections,
     and voter registration issues discussed in this finding in conjunction with the Government
     of Afghanistan, other local stakeholders, and international donors.

Mission Did Not Complete Contractor
Performance Review
The Federal Acquisition Regulation (FAR 42.1502) requires agencies to evaluate and report on
contractor performance for each contract exceeding the simplified acquisition threshold, which is
currently $150,000. Furthermore, USAID Acquisition Regulation 742.15 (also known as 48
CFR 742.1502) requires contracting officers to report on contractor performance at least
annually.

The mission has not completed annual contractor performance evaluations of IFES’s work
under the STEP contract as required. The mission should have completed at least two
performance reviews by June 2010, 2 years after the signing of the contract. However, the
mission has not completed any of the required reviews. As of February 2011, the mission was
just preparing its first review.

According to the contracting officer’s technical representative (COTR), not preparing contractor
performance reviews for the first 2 years of the program was an oversight. The oversight was
not caught because there was no reliable system in place to make sure that contractor
performance reviews were prepared when they were due. The lack of contractor performance

14
  National Democratic Institute, The 2009 Presidential and Provincial Council Elections in Afghanistan,
2010.

                                                                                                      11
reviews was noted in a prior audit report.15 According to an Office of Acquisition and Assistance
official, USAID/Afghanistan has been switching to a new system for reviewing contractor
performance sinceThis new system will automatically initiate the review process on the contract
anniversary date by sending e-mail notification to the contracting officer, the COTR, and the
contractor.

Regular, comprehensive, and conscientious performance evaluations can provide the mission
with information to make better acquisition decisions and can serve as a significant incentive to
contractors to provide USAID with superior products and services. Further, the U.S.
Government Accountability Office has ruled that failure to properly document contractor
performance information and make the information available for use in source selections for the
same or similar items is a sufficient basis to sustain a protest of a contract award in a
subsequent source selection. We are therefore making the following recommendation.

     Recommendation 4. We recommend that USAID/Afghanistan complete all required
     contractor performance reviews under the Support to the Electoral Process contract in
     accordance with Federal Acquisitions Regulation and Agency for International
     Development Acquisitions Regulation requirements.

Implementing Partner Did Not
Implement Rural Radio Program
Supplemental funding of $1.4 million was provided to IRI to connect rural communities through a
media program for civic and voter education. The rural radio program was to be implemented
from May through October 2010, leading up to the 2010 parliamentary elections.

IRI did not implement the rural radio program, because existing radio infrastructure was not
sufficient in the rural areas it was targeting, and it was relying on another USAID/Afghanistan
program (the Local Governance and Community Development or LGCD program) to construct
additional radio towers. However, according to IRI and the LGCD contracting officer’s technical
representative, the LGCD program was behind schedule and did not erect the radio towers as
planned. Ultimately IRI’s intended subcontractor for radio programming began constructing its
own radio towers in the targeted areas, and IRI anticipates moving forward and using the $1.4
million to provide other radio programming such as discussions of parliamentary activities.

The effect of not implementing this activity can be measured in terms of a lost opportunity to
provide increased voter awareness. By not implementing the rural radio program, IRI missed an
opportunity to reach 2 million potential voters in strategically significant southern and eastern
rural areas. While IRI and the mission intend to use this funding for additional radio
programming in spring 2011, specific plans have not been developed, and those discussed so
far appear to be outside the scope of the supplemental funding.

We are therefore making the following recommendation:

     Recommendation 5. We recommend that USAID/Afghanistan prepare an
     implementation plan for use of the $1.4 million rural radio supplemental funding
     consistent with the goals of the program, or reprogram these funds for other mission
     programs.

15
  USAID Office of Inspector General, Audit Report No. 5-306-10-007-P, ―Audit of USAID/Afghanistan’s
Human Resources and Logistical Support Program,‖ March 31, 2010.

                                                                                                      12
Partner Charged Unreasonable
Security Costs to USAID
Office of Management and Budget Circular A-122 states that, to be allowable under an award,
costs must be reasonable for the performance of the award. A cost is reasonable if, in its nature
or amount, it does not exceed that which would be incurred by a prudent person under the
circumstances prevailing at the time the decision was made to incur the costs.

Staff in the Office of Democracy and Governance and the Office of Acquisition and Assistance
considered the security costs charged by one partner on the IEP program—IRI—unreasonable
because IRI’s security arrangements appeared to them to exceed needs, as measured by the
―prudent person‖ standard. For example, we were told, it was not uncommon for a former IRI
chief of party to attend events with a larger security detail than the U.S. Ambassador’s. Staff
also noted that the security costs incurred by IRI were out of line with those of the other
Consortium members implementing the IEP program, as indicated in Table 4. The cost
comparisons in Table 4 should be treated with caution because the programs supported by the
Consortium members were not identical, and therefore their security needs were not identical.
The activities supported by IRI and NDI are more similar than the activities supported by IFES.

                Table 4. Security Cost Comparison for Consortium Members
                          Working on the IEP Program (Unaudited)

Comparison                                       IRI                     NDI                  IFES
Security costs as of
                                         $6,350,319              $4,431,089               $776,279
9/30/2011
Security costs as a
                                                45%                     39%                    12%
percentage of total costs
Security costs per
                                         $3,175,159                $738,514               $388,139
expatriate employee
Security costs per
employee (including
                                            $93,387                  $42,606               $18,053
expatriate and local
employees)
Security costs per square
meter of office and living                   $2,300                     $489                  $657
space in Afghanistan
Source: IRI, NDI, and IFES.

USAID/Afghanistan had taken action to address unreasonable security costs but had not been
completely successful. In May 2009, when the Consortium (including IRI) requested an
additional $19 million for security expenses, mission staff negotiated the request down to $7
million. In November 2009, when IRI requested an additional $4.5 million for security expenses,
mission staff objected to the increase but relented when IRI indicated that it would pull out of the
program if the increase was not approved.

One Office of Acquisition and Assistance staff member noted that decisions on the
reasonableness of security costs are extremely sensitive since the U.S. Government might be
exposed to criticism if it does not pay for security precautions proposed by its contractors and
grantees and they subsequently suffer a successful attack. This staff member related a best

                                                                                                 13
practice from another USAID mission: establish a committee to review security costs to ensure
consistency and reasonableness of security costs across all the mission’s programs.

The effect of incurring unreasonable security costs is that USAID resources were used for
unallowable costs, reducing funds available for implementing assistance activities.

   Recommendation 6. We recommend that USAID/Afghanistan determine the allowability
   of the $6,350,319 incurred by the International Republican Institute for security
   expenses, and recover any costs determined to be unreasonable.

   Recommendation 7. We recommend that USAID/Afghanistan establish procedures and
   criteria for determining the reasonableness of security costs charged by implementing
   partners.

Consortium Did Not Consolidate
Support Functions to Reduce
Expenses
Consortiums can be defined as associations of two or more individuals, companies,
organizations, or governments (or any combination of these entities) participating in a common
activity or pooling their resources for achieving a common goal. The request for application
issued by the mission encouraged Consortium members to consolidate field offices where
possible to save costs.

However, the final agreement negotiated between the mission and the Consortium did not
require Consortium members to consolidate functions to reduce costs. Specifically, each
Consortium participant had its own Kabul-based home office, living quarters, and support
functions such as security, human resources, and information technology. Instead of working
as a consortium, each members of the Consortium acted as an independent recipient of USAID
assistance.

The negotiation memorandum prepared by the mission’s Office of Acquisition and Assistance
does not explain why the Consortium members were not required to consolidate functions.
Furthermore, the only staff member still available who was present when the original agreement
was negotiated could not explain why the mission did not insist on a consolidation of
administrative functions.

Mission staff indicated that consolidating administrative services, housing, and security could
have reduced program costs by approximately 15 to 20 percent, resulting in estimated savings
ranging from $6 million to $8 million. These funds could have been used to expand IEP
program activities or used on other mission programs.

Since the mission is considering a follow-on program, we are making the following
recommendation.

   Recommendation 8. We recommend that USAID/Afghanistan’s follow-on program
   require members of the Consortium for Election and Political Process Strengthening to
   consolidate functions and facilities to the extent possible to reduce expenses.



                                                                                            14
Consortium Did Not Properly Mark
USAID-Funded Publications
Branding and marking requirements for USAID assistance are established by 22 CFR 226.91,
which requires that specific activities partially or fully funded by a USAID grant or cooperative
agreement or subaward be marked appropriately with the USAID identity. Activities financed by
USAID should bear the USAID identity, including the USAID logo. The regulations further state
that USAID implementing partners may request waivers from these requirements, in whole or in
part, through the contracting officer. Presumptive exceptions to the requirements include
situations in which the USAID identity would compromise the intrinsic independence or
neutrality of a program, such as elections monitoring or ballots, and voter information literature
and political party support.

The three Consortium members did not consistently mark publications and reports with the
USAID logo. Specifically, NDI did not consistently mark update publications on Afghanistan
elections, and IFES did not consistently mark its quarterly progress reports. In at least two
cases, IFES and NDI agreed to publicize USAID’s support; however, even in these cases, the
materials were not marked in accordance with USAID’s branding and marking requirements.

Two Consortium members (NDI and IFES) submitted requests for waivers, but the agreement
officer’s technical representative (AOTR) did not act on them because he considered that any
such requests should come from the Consortium itself, not from its individual members; he
noted that USAID’s agreement is with the Consortium, not with the individual members. The
AOTR did ask IRI to submit a marking and branding plan.

As a result, the Consortium missed opportunities to acknowledge USAID as a supporter of the
civic education program. Therefore, participants in the university seminar program were not
likely to know that USAID funded the program at a time when it is increasingly important to
demonstrate the positive impact of USAID assistance in Afghanistan.

   Recommendation 9. We recommend that USAID/Afghanistan (1) require the
   International Republican Institute, as the lead partner in the Consortium for Elections
   and Political Process Strengthening, to submit a Consortium marking and branding plan
   and (2) verify that the plan has been implemented.




                                                                                               15
EVALUATION OF MANAGEMENT
COMMENTS
Based on our evaluation of USAID/Afghanistan’s comments on our draft report, management
decisions have been reached on Recommendations 1, 2, 4, 5, and 9. No management
decisions have been reached on Recommendations 3, 6, 7, and 8. The following paragraphs
provide our evaluation of mission comments on each recommendation.

For Recommendation 1, which is that USAID/Afghanistan undertake a technical evaluation of
the effectiveness of voter education and civic education efforts it has supported, the mission
agreed and is working with implementing partners to develop a national survey that includes
questions that focus on voter awareness and participation. These questions will gauge the
effectiveness of USAID-supported voter and civic education. In addition to the survey
instrument, the mission will conduct an election program evaluation in June and July 2011. This
evaluation will examine the effectiveness of USAID's support to the election process and will
include a review of the civic and voter education initiatives. The mission noted that it will be
challenging to solicit meaningful data on the effectiveness of civic and voter education initiatives
during a non-election period. These actions will be completed by October 31, 2011. For these
reasons, a management decision has been reached.

For Recommendation 2, which is that the mission prepare a more formal project design
document for the follow-on program after the Support to the Electoral Process Program ends in
June 2011 that explicitly identifies the critical assumptions underlying the program design, the
mission concurred. It will incorporate national perspectives into the design of its future elections
support programs by engaging with the GIRoA and IEC counterparts. The mission also plans to
invite independent technical elections specialists to conduct strategic reviews of the elections
portfolio. These actions will be completed by September 30, 2011. Therefore, a management
decision has been reached.

In regard to Recommendation 3, which is that the mission develop detailed plans for addressing
the legal reforms, financial and constitutional arrangements for elections, and voter registration
issues discussed in this finding in conjunction with the Government of Afghanistan, other local
stakeholders, and international donors, the mission concurred. The mission has outlined a
series of activities undertaken and others planned to address the legal reform, financial and
constitutional arrangements for elections and voter registration. However, the mission did not
provide a date to complete plans for addressing needed legal reforms, financial and
constitutional arrangements for elections, and voter registration issues discussed in the finding
because discussions on these issues are on-going. While we agree that activities are on-going
plans need to be established to address the larger-team issues discussed in the report.
Therefore, no management decision has been reached for this recommendation.

For Recommendation 4, which is that the mission complete all required contractor performance
reviews under the Support to the Electoral Process contract, the mission agreed. The COTR
and Alternate COTR will complete the contractor performance reviews in collaboration with the
Contracting Officer using the Contractor Performance Assessment Reporting system. The
contractor performance reviews for the first two project years will be completed by August 31,
2011. Year 3 reviews will be conducted after the end of the period of performance on


                                                                                                 16
September 30, 2011. All actions will be completed by November 1, 2011.             Therefore, a
management decision has been reached.

For Recommendation 5, which is that the mission prepare an implementation plan for use of the
$1.4 million rural radio supplemental funding consistent with the goals of the program, or
reprogram these funds for other mission programs, the mission concurred. The mission has
directed IRI to prepare an implementation plan for using the funds, and IRI has submitted a
concept paper that envisions using the funds—originally for pre-election voter education
programs—for radio programs focusing on the performance of elected officials and discussion
of political and social issues. Therefore, a management decision for recommendation 5 has
been reached.

For Recommendation 6, which is that the mission determine the allowability of $6,350,319 in
security costs, the mission agreed and will conduct a review to determine the allowability of the
questioned security costs. The mission will also request from IRI more detailed information on
its security-related expenditures, specifying its efforts to contain and control costs when and
where feasible. If costs are determined to be unallowable, the mission will issue a bill of
collection to recover the unallowable costs. These actions will be completed by August 31,
2011. Until allowability of the costs is determined, a management decision has not been
reached.

For Recommendation 7, which is that the mission establish procedures and criteria for
determining reasonableness of security costs, the mission asked the Office of Inspector General
to reconsider its recommendation. The mission interpreted the recommendation as requiring a
market price survey that could take 12 to 15 months, and it wondered whether this would be
worthwhile in light of recent developments affecting private security firms in Afghanistan. The
mission noted that, once the Afghan Public Protection Force assumes responsibility for the
security of USAID’s partners, the partners will be expected to pay fixed prices for security
services. Therefore, the mission considered that our recommendation was overtaken by
events.

We still believe that Recommendation 7 should be implemented. Security costs are a significant
part of the total cost of USAID/Afghanistan’s assistance programs, and we believe that
establishing procedures and criteria for determining the reasonableness of these costs would be
useful to the mission. Our recommendation did not contemplate that the mission should
undertake a market price survey, nor did it contemplate that the mission should focus
exclusively on the price of security services. Rather, we expected that the mission would
develop procedures and criteria to promote consistency in the way that security costs are
reviewed. While we do not want to be overly prescriptive about how this should be done, it
might be useful to establish a committee to review security costs, since involving the same
people in reviews would likely promote consistency. It might also be useful to develop criteria
for reviewing security costs, since this would also help promote consistency. A management
decision can be reached when we and the mission agree on a firm plan of action, with
timeframes, for implementing the Recommendation 7.

For Recommendation 8, which is that the mission follow-on program require members of the
Consortium for Election and Political Process Strengthening to consolidate functions and
facilities to the extent possible to reduce expenses, the mission partially concurred. The
mission noted that a consolidation of functions and facilities of implementing partners' at the
national level may prove less advisable. No management decision has been reached because
the mission has not stated whether it will require the Consoritum partners to consolidate

                                                                                              17
functions and facilities at the national or sub-national level should the mission select the
Consortium for any follow-on implementation. Therefore, no management decision has been
reached.

For Recommendation 9, which is that the mission require the Consoritum to submit a
consolidated branding and marking plan, the mission concurred. The mission has received a a
Consoritium branding and marking plan. The mission will review the plan and verify its
implementation through field visits during the remainder of the activity. This action will be
completed by July 31, 2011. Based on mission receipt of the Consoritum branding and marking
plan, a management decision has been reached.




                                                                                          18
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General’s Afghanistan Country Office conducted this performance audit
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our audit objective. We
believe that the evidence obtained provides that reasonable basis. The objective of the audit
was to determine whether the IEP and STEP programs were achieving their main goal of
strengthened competitive, inclusive, and credible elections and political processes. The audit
covered $98.9 million in accrued expenditures by USAID/Afghanistan.

The audit was performed in Afghanistan from December 9, 2010, through March 14, 2011, and
covered activities from the beginning of each program (June 15, 2008, for STEP and September
29, 2008, for IEP) through March 14, 2011. We conducted audit work at the Kabul offices of
USAID/Afghanistan and the STEP and IEP implementers (i.e., IFES, IRI, and NDI), as well as at
the IFES office in Herat.

We assessed the significant internal controls used by USAID/Afghanistan to monitor program
activities, including the work statements and program descriptions included in the STEP contract
and the IEP cooperative agreement, work plans and monitoring and evaluation plans, quarterly and
monthly progress and financial reports, and meetings and other contacts between
USAID/Afghanistan officials and the program implementers. We also reviewed the mission’s
Federal Managers’ Financial Integrity Act report for fiscal year 2010 and prior audit reports to
identify internal control and other issues that could be relevant to the current audit.

Methodology
To answer the audit objective, we interviewed USAID/Afghanistan officials, program
implementers, and program beneficiaries. We also analyzed relevant documentation including
contracts and agreements, plans, reports, training agendas and participant lists, financial
records, invoices, receipts, receiving reports, and inventory records.

In reviewing program accomplishments, we focused on 52 key outputs (36 under the STEP
program and 16 under the IEP program) that we judgmentally selected in collaboration with
USAID/Afghanistan as being the most important outputs and the ones most likely to influence
higher-level results expected from the STEP and IEP programs. To determine whether key
outputs were achieved, we reviewed reported results and verified them by comparing them with
source documents (e.g., invoices, receipts, receiving reports, work products, and training sign-in
sheets) or by observing goods and services provided by USAID. We also interviewed program
beneficiaries and consulted other sources of information (e.g., local laws and regulations, official
election results, public opinion polls, and election observation reports) to make judgments and
reach conclusions about the quality of the outputs and whether the outputs influenced higher-
level results. We did not reach any conclusions regarding any of the other outputs (i.e., those
that we did not identify as key outputs) under the STEP and IEP programs.




                                                                                                 19
                                                                                       Appendix II



MANAGEMENT COMMENTS

MEMORANDUM

TO:                   David Thomanek, Acting OIG/Afghanistan Director

From:                 Robert Hellyer, Senior Deputy Mission Director /s/

DATE:                 May 25, 2011

SUBJECT:              Audit of USAID/Afghanistan’s Support to The Electoral Process (STEP)
                      and Support for Increased Electoral Participation in Afghanistan (IEP)
                      Programs (Report Number F-306-11-XXX-P)

REFERENCE:            Tim Cox/Earl Gast memo dated April 18, 2011

Thank you for providing the mission with the opportunity to review the subject draft audit report.
We appreciate the professionalism and flexibility exhibited by the audit team while meeting with
the implementing partners and traveling to areas outside of Kabul during the audit fieldwork.

Discussed below are the mission’s comments on the findings and recommendations in the draft
audit report.

Recommendation 1: We recommend that USAID/Afghanistan undertake a technical
evaluation of the effectiveness of voter education and civic education efforts it has supported.

Mission Comments: USAID/Afghanistan concurs with this recommendation.

USAID/Afghanistan finds it very encouraging that the Independent Election Commission (IEC)
developed more sophisticated messaging outreach and voter information product dissemination
for the 2010 Parliamentary elections. USAID implementing partners are continually working
with the IEC to sustain this voter education and public information capacity. The IEC also
benefited greatly from USAID/Afghanistan-supported lessons learned workshops performed
post-2009 and post-2010 elections, held in January 2011, to best determine future voter
education messaging, voter outreach related activities and building linkages with civil society
networks.

The OIG report cites The Asia Foundation (TAF) national survey results and a
STEP/Counterpart International survey where voter awareness for 2010 ranged from 68 to 78%
of the voting age population. It is not uncommon for voter participation and awareness rates to
drop for mid-term or Parliamentary elections as opposed to a Presidential election or a first
series of post-conflict/transitional elections. Actual participation rates are more difficult to
determine in Afghanistan, largely due to the country’s problematic voters list, insecurity in the
East and South of the country on Election Day, high levels of localized fraud and the absence of
reliable census of the country’s population. Moreover, a 67% - 75% voter awareness rate would


                                                                                                   20
                                                                                       Appendix II


be viewed positively in mature democratic systems but is even more impressive in a transitional
democracy like Afghanistan.

Actions Taken/Planned:

The mission is currently working with implementing partners on the development of national
surveys, to be implemented in the May through July 2011 timeframe. Included in the survey
instruments are questions focused on voter awareness and voter participation. The purpose of
these questions will be to gauge the effectiveness of USAID supported voter and civic education
programs.

The mission will perform an evaluation in the June to July 2011 time period to review USAID
support to the Afghan elections process. The mission will include a review of civic and voter
education initiatives within this evaluation. However, as previously discussed with OIG, it will be
challenging to obtain meaningful data on the effectiveness of civic and voter education related
initiatives in non-election periods.

Target Completion Date: (October 31, 2011)

Final action is expected to be completed by end of October 2011 upon receipt and review of the
external evaluation results and review and analysis of national survey-related data.

Based on the above, the mission deems that a management decision has been reached on
Recommendation 1.

Recommendation 2: We recommend that USAID/Afghanistan prepare a more formal project
design document for the follow-on program after the Support to the Electoral Process Program
ends in June 2011 that explicitly identifies the critical assumptions underlying the program
design.

Mission Comments: USAID/Afghanistan concurs with this recommendation.

It should be noted that the period of performance for the IFES STEP program component was
extended from December 12, 2010 through September 30, 2011.

With the conclusion of a highly intensive election events period (Presidential and Provincial
Council Election in 2009 and Parliamentary Elections in 2010), the mission’s electoral support
activities will necessarily change. As a matter of course a future elections program will be
designed within agency and mission practice that explicitly identifies the critical assumptions
(operational, security, political, etc…) underlying the program design.

The mission will continue to implement priority US support to the elections sector that links with
mission objectives to support the 2014 Afghanistan transition process. Electoral support will
remain critical to the development of consolidated democratic authority by 2014. With the next
Afghan presidential elections scheduled for 2014 this will figure prominently into planning
efforts.

Actions Planned:

The mission will work with GIRoA and IEC counterparts to incorporate national perspectives into
the design of future elections support program(s). The mission will also invite outside technical

                                                                                                  21
                                                                                          Appendix II


election specialists to conduct a strategic review of the elections portfolio. This review will help
further identify critical assumptions and inform future project design efforts.

Target Completion Date: (September 30, 2011)

Final action is expected to be completed by September 30, 2011.

Based on the above, the mission deems that a management decision has been reached on
Recommendation 2.

Recommendation 3: We recommend that USAID/Afghanistan develop detailed plans for
addressing the legal reforms, financial and constitutional arrangements for elections, and voter
registration issues discussed in this finding in conjunction with the Government of Afghanistan,
other local stakeholders, and international donors.

Mission Comments: The mission concurs with this recommendation and notes that this is
relevant in the face of Afghanistan’s political fluidity, potential constitutional change and evolving
legislative / executive relations. USAID is the lead donor agency providing technical assistance
to improve future independent election administration and electoral legal framework design.
Electoral legal reform has invoked considerable levels of international interest but for it to be
successfully implemented it will need to be Afghan led. Any program design in this area will
need to be performed with consideration to the politically sensitive nature of electoral reform.

Actions Taken/Planned:

The mission is working in coordination with IEC leadership and GIRoA counterparts on the
development of program support that both builds capacity and increases the probability for
improvements to Afghanistan’s election administration and electoral legal framework. In
December 2010, the mission extended an activity to enhance the capacity of Afghan
stakeholders to identify elections process improvement or reform. This activity will support an
Afghan led dialogue on technical and legal electoral reform.

At the request of the IEC, the IFES STEP program supported a January 2011 IEC Lessons
Learned conference where IEC national, regional and provincial leadership worked to identify
critical technical areas in need of improvement. These lessons learned will serve as a basis for
improvement and reform of the existing elections technical and operational framework.

In March 2011, the mission facilitated the first meeting between leadership of the Ministry of
Communications and Information Technology (MCIT) and the Independent Election
Commission (IEC). This initiated the first high level discussions of the Government of Islamic
Republic of Afghanistan (GIRoA) with the IEC on the future applicability of the National ID (NID)
database to serve as an extract for a future voter registry.

During the current Afghan solar year 1390, the mission will help lead the discussion on the
longer term financial sustainability of Afghanistan’s elections. Election costs must be
increasingly borne by the national Afghan budget. In the short term, the mission plans to
continue providing support to Afghanistan’s elections through implementing partners. In the
interest of longer term financial sustainability, the mission will perform with GIRoA an
assessment of the IEC to determine future core budget needs to sustain its yearly operations
and elections events.


                                                                                                   22
                                                                                      Appendix II


Since early 2009, the mission’s ODG staff and US Embassy Kabul Political Office colleagues
have continuously represented US mission interests in international donor coordination forums
on elections. USAID staff ensure coordination with UN, EU, and other bilateral donor
programming and advocate for effective cost-sharing of activities where and when feasible.

Target Completion Date: Since this is an ongoing process, establishing a completion date is
not applicable.

The mission deems that a management decision has been reached and that appropriate actions
are being taken to fully address Recommendation 3. The mission, therefore, requests closure
of this recommendation.

Recommendation 4: We recommend that USAID/Afghanistan complete all required
contractor performance reviews under the Support to the Electoral Process contract in
accordance with Federal Acquisitions Regulation and Agency for International Development
Acquisitions Regulation requirements.

Mission Comments: The mission concurs with this recommendation.

Actions Taken:

The Contracting Officer’s Technical Representative (COTR) and the Alternate COTR will
perform the contractor performance review in collaboration with the Contracting Officer using
the Contractor Performance Assessment Reporting System (CPARS). Performance reviews for
Years 1 and 2 are expected to be completed by August 31, 2011. Performance review for Year
3 will be conducted after the end of the period of performance on September 30, 2011.

Target Completion Date: (November 1, 2011)

Final performance review is expected to be completed by November 1, 2011.

Based on the above, the mission deems that a management decision has been reached on
Recommendation 4.

Recommendation 5: We recommend that USAID/Afghanistan prepare an implementation
plan for use of the $1.4 million rural radio supplemental funding consistent with the goals of
the program, or reprogram these funds for other mission programs.

Mission Comments: The mission concurs with this recommendation.

Actions Taken/Planned:

The mission and CEPPS-IRI are preparing a suitable implementation plan in line with the goals
of the existing program concept. CEPPS-IRI submitted a revised implementation plan on May 5,
2011. The mission will encourage efforts to build post-election awareness that connects elected
Members of Parliament to their respective constituents through radio and other media
roundtable discussions.

Target Completion Date: (August 31, 2011)

Implementation of the revised activity will be completed by August 31, 2011.

                                                                                                 23
                                                                                         Appendix II



Based on the above, the mission deems that a management decision has been reached on
Recommendation 5.

Recommendation 6: We recommend that USAID/Afghanistan determine the allowability of the
$6,350,319 incurred by the International Republican Institute for security expenses, and recover
any costs determined to be unreasonable.

Mission Comments: The mission concurs with this recommendation.
Actions Planned:

The mission will conduct a review to determine the allowability of CEPPS-IRI’s security costs.
The mission will request from CEPPS-IRI more detailed information on security-related
expenditures and specification of any efforts made to contain and control security-related costs
where and when possible. Costs determined to be unallowable, if any, will be billed to CEPPS-
IRI and will be recovered accordingly through issuance of a bill for collection.

Target Management Decision Date: (August 31, 2011)

Management decision is expected to be made by August 31, 2011 upon the Agreement
Officer’s final determination on the allowability of the questioned security costs. Final action will
be requested upon actual recovery of unallowable costs, if any.

Recommendation 7. We recommend that USAID/Afghanistan establish procedures and
criteria for determining the reasonableness of security costs charged by implementing
partners.

Mission Comments: The mission does not concur with this recommendation.


Afghanistan’s security situation is fluid; as such, there is considerable variation in security costs
incurred by implementing partners, depending on the operating theatre, visibility and potential
vulnerability of the respective projects. While USAID/Afghanistan agrees that there is a need to
establish procedures and criteria to ensure the reasonableness of security costs, investing time
and effort on a formal market survey and developing policies and procedures based on the
results of the survey, do not seem to be practical at this time.

The implementation of Presidential Decree (PD) 62 mandates the dissolution of Private Security
Companies (PSC) and authorizes the creation of a bridging strategy which provides a transition
of PSC-provided security services to the Afghanistan Public Protection Force (APPF). This
transition is expected to be completed by March 2012. The objective of the APPF is to protect
key infrastructure, facilities, construction projects, and personnel with a special focus on the
protection from insurgency. It will also provide protection for those facilities for which donors,
international agencies, and private sector organizations currently contract PSCs. The mission
anticipates that the APPF should establish fixed prices, and that our implementing partners
would be required to pay these fixed-price services. Finally, the procurement of services and
the time to generate the results of a survey may take at least 12-15 months to complete.

Given this expected timeline and the planned transition to APPF in March 2012, USAID cannot
now justify the expense or effort associated with this type of survey.


                                                                                                   24
                                                                                        Appendix II


Actions Planned:

Should the mission obtain definitive information within the next six months that PD 62 would not
be implemented, the mission would then initiate appropriate measures to address OIG’s
concerns and establish necessary guidance and procedures to assure the reasonableness of
security costs.

Based on the above, the mission requests OIG’s reconsideration of Recommendation 7.

Recommendation 8. We recommend that USAID/Afghanistan’s follow-on program require
members of the Consortium for Election and Political Process Strengthening to consolidate
functions and facilities to the extent possible to reduce expenses.

Mission Comments: To the extent that the mission plans to use CEPPS for any future
elections programs, the mission concurs with this recommendation and notes that any
anticipated reduction in expenses would more likely be achieved at the sub-national levels
where consolidation of offices and training provides a logical cost-sharing and cost-savings
potential. Because of the politically-sensitive nature of the CEPPS activities, however, and
the respective implementing partners’ interaction with political leaders and other civil society
activists, any consolidation of functions and facilities at the national level may prove less
advisable.

Actions Taken/Planned:

With an increasingly challenged budgetary environment and presuming future CEPPS related
elections programming, the mission will advise the CEPPS partners to look for opportunities to
consolidate functions and facilities, to the extent possible, in order to reduce expenses. Further
formal written guidance will be sent to the CEPPS leadership with the distribution of the program
document (PD) for a follow-on CEPPS agreement.

Target Completion Date: (October 1, 2011)

To the extent that the mission plans to use the CEPPS mechanism for future elections
related programming, this recommendation would be implemented with the initiation of any
future CEPPS project.

Based on the above, the mission deems that a management decision has been reached on
Recommendation 8.

Recommendation 9. We recommend that USAID/Afghanistan (1) require the International
Republican Institute, as the lead partner in the Consortium for Elections and Political
Process Strengthening, to submit a Consortium marking and branding plan and (2) verify
that the plan has been implemented.

Mission Comments: The mission concurs with this recommendation.

Actions Taken/Planned:

On April 18, 2011, the mission formally requested CEPPS to deliver a collective branding and
marking plan. All CEPPS partners have individually submitted branding and marking plans as
of May 4, 2011. The mission will review the plans and verify implementation through field visits

                                                                                                   25
                                                                                  Appendix II


during the remainder of the activity.

Target Completion Date: (July 31, 2011)

Final action is expected be completed by July 31, 2011 upon USAID’s completion of the review
and approval of the CEPPS branding and marking plan as well as verification of its
implementation.

Based on the above, the mission deems that a management decision has been reached on
Recommendation 9.




                                                                                          26
                                                                                                 Appendix III



PLANNED AND ACTUAL
OUTPUTS FOR STEP
STEP Contract Tasks and          Actual Outputs (Verified by Auditors Except Where Noted)
Subtasks (Planned
Outputs)
Task 1. Long-term capacity building of the IEC
1.1 Institutional assessment     IFES performed institutional assessments in September 2008 and
of the IEC                       March 2010.
1.2 Institutional benchmarks     Benchmarks were identified in the institutional assessments prepared
for IEC                          under subtask 1.1.
1.3 Needs assessment (1.3.1 Needs assessment is an ongoing process. No needs assessment
technical and logistical and     document is available.
1.3.2 equipment and
commodities)
1.4 Staff recruitment plan,      No recruitment plan or retention strategy was prepared.
retention strategy, and
training programs
1.5 Procurement                  IFES reportedly procured information technology equipment valued at
                                 $1.1 million for IEC. We examined receipts and receiving reports and
                                 performed commodity end-use checks on a sample of items procured
                                 by IFES and found no significant exceptions.
1.6 Logistical and               Relatively little effort was devoted to this task; almost all of the effort
programmatic support to          related to training.
subnational offices
1.7 Development and              No communications plan or other deliverable has been prepared,
implementation of a              although IFES provided consultants to work with the external relations
communications plan              department.
1.8 Technical assistance on      Little has been done on this subtask; there is no product or deliverable
budget forecasting and           available to review.
management
1.9 Technical assistance on      An IFES consultant wrote a relevant report.
provincial delimitation
1.10 Review and production       IFES assisted with production of training and outreach materials
of training and outreach         (publications and cassette tapes), and reportedly procured printing
materials                        and training services valued at $4.4 million. We examined a sample of
                                 outreach materials and examined receipts and receiving reports for a
                                 sample of printing and outreach procurements. No significant
                                 exceptions were noted.
1.11 Technical assistance to     Through a subcontractor, IFES conducted a national assessment and
IEC departments                  focus groups to test views of the electorate concerning elections.
                                 IFES also provided assistance to IEC department heads, the results of
                                 which are captured under other tasks.
1.12 Capacity-building           Auditors did not verify (not a key output).
support to the Election Official
Association
1.13 Logistical and              IFES provided staff and equipment for the Election Education Center.
programmatic support to the
Election Education Center




                                                                                                           27
                                                                                             Appendix III


1.14 Election observation and   IFES supported a study tour to Bosnia that formed a basis for a
study tours                     campaign financing monitoring project.

Task 2. Election Administration Support
2.1 Timeline and benchmarks Timelines and benchmarks for the 2009 and 2010 elections were
leading up to 2009 and 2010    prepared.
elections
2.2 Identify and purchase      According to IFES officials, UNDP purchased most election materials,
election commodities           although IFES provided minor support for IEC headquarters for the
                               elections (not verified by auditors).
2.3 Promote dialogue           The best example IFES officials can provide of promoting dialogue
between IEC and other          with other ministries and directorates is their work with the Ministry of
ministries and directorates on Women’s Affairs and the Ministry of Interior to increase the number of
election issues                female searchers and other female election workers, to make women
                               feel comfortable voting (not verified by auditors).
2.4 Technical assistance on    An IFES adviser provided assistance on development of campaign
the development of campaign regulations.
regulations
2.5 Translation services       (Auditors did not review or verify services, which were not a key
                               output.)
2.6 Technical assistance on    IFES officials say that an IFES adviser provided support to IEC on
candidate nomination           candidate nomination procedures. There was no deliverable per se.
procedures                     (Not verified by auditors.)
2.7 Technical assistance on    Little was done on this subtask; according to IFES officials, for both
vote-counting regulations and the 2009 and 2010 elections, UNDP took a strong lead on all election
procedures                     procedures while IFES played a limited supporting role (not verified by
                               auditors).
2.8 Technical assistance on    An IFES consultant provided assistance in drafting the campaign
campaign finance regulations finance regulations.
2.9 Logistical and             IFES provided staff for call centers for the 2009 and 2010 elections.
programmatic support for
candidate and voter
education centers
2.10 Education campaigns for IFES produced fact sheets and other materials for candidates.
parties and candidates on
campaign regulations
2.11 Electoral Complaints      Training on adjudication of complaints was given to ECC and PECC
Commission and Provincial      staff in 2009 and 2010.
Electoral Complaints
Commission
2.12 Media monitoring unit     IFES established and staffed the media monitoring unit.
2.13 Support to the media      IFES did not buy air time for candidate advertising but did buy air time
monitoring unit to provide     for IEC public service announcements and other messages.
equal access (buy airtime and
verify)
2.14 Update polling station    IFES helped IEC update its polling station procedures and incorporate
procedures                     numerous antifraud measures.
2.15 Identify and train poll   IFES provided financial support for ―training of trainers‖ provided by
workers on election day        UNDP in 2009. In 2010, IFES paid a small stipend for the people who
procedures                     attended the training.
2.16 Voter education program IFES and its civic education subcontractor reached more than a million
                               people in both 2009 and 2010. Through another subcontractor, IFES
                               supported mobile theaters that reached 40,240 people.




                                                                                                       28
                                                                                            Appendix III


2.17 Outreach program for       STEP/IFES supported social movements to mobilize voters (e.g., the 5
women voters and                million women campaign organized by the Afghan Women’s Network).
candidates.
Task 3. Voter registration support
3.1 Voter registration          IFES provided advice on voter registration but did not play any
logistical plan                 operational role.
3.2 Voter registration
outreach materials
3.3 Voter registration center
procedures
3.4 Finalization and display of
the voter register
3.5 Staff training on voter
registration
3.6 Creation of voter
registration department and
provision of voter registration
adviser
3.7 Maintenance and update
of voter register
Task 4. Logistics and           (Auditors did not review or verify this task or the related subtasks
operational planning            because they were not identified as key outputs contributing to higher-
                                level results.)




                                                                                                      29
                                                                                           Appendix IV



 PLANNED AND ACTUAL
 OUTPUTS FOR IEP
          Performance Indicator                2009 Target   2009 Actual    2010 Target     2010 Actual

IRI
No. of election candidates and campaign        70            64             10             34
workers trained                                candidates
                                               100
                                               campaign
                                               workers
No. of individuals trained in issues           3,000         36             NA             0
caucusing or political campaigning
No. of USAID-assisted civil society            10            10             NA             5
organizations promoting political
participation
No. of people reached through USAID            10,000        360,254        NA             51,489
voter education programs (gender               (1,000        (104,139                      (1,169
disaggregated)                                 female)       female)                       female)
No. of issues-based social movements           10            10             5              5
promoting political participation
No. of people reached through USAID-           1.2 million   1.2 million    NA             NA
assisted media programs
No. of polls conducted                         2             2              NA             NA
No. of participants in campaign academy        500           500            215            215
NDI
No. of political leadership strategic          4             4              7              7
planning trainings
Political party assessment conducted           1             1              NA             NA
No. of persons trained thru political party    2,452 males   3,404          NA             NA
training of trainers (disaggregated by         951 females
gender)
No. of polling agents trained (gender          886 males     1,306          NA             NA
disaggregated)                                 421 females
No. of candidates trained through the          NA            NA             1,501 males    1501 males
candidate orientation training (gender                                      208 females    208 females
disaggregated)
No. trained through candidate agent            NA            NA             26,228 males   36,200
training (disaggregated by gender)                                          9,786
                                                                            females
No. of political party activists trained, by   NA            NA             3,211 males    6,317
region (disaggregated)                                                      1,259
                                                                            females
No. of female political candidates trained     NA            NA             248            225
through women’s candidate campaign
schools
IFES
Total number of people reached by              NA            8-10 million   2,743,692      12 million
USAID-assisted voter education



                                                                                                        30
                                                                                         Appendix IV


         Performance Indicator                 2009 Target   2009 Actual   2010 Target    2010 Actual

Number of unique visits to electoral section   5,586         22,870        22,870        37,156
of Web site
Number of local nationals whose                NA            300           120           122
knowledge of political finance has
increased
Number of journalists trained                  NA            100           92            91
Number of universities hosting                 NA            3             3             3
conversation clubs
Number of students receiving training          NA            45            72            53
Women of influence trained                     NA            246           100           272




                                                                                                  31
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
